No. 21-194

dir the
Supreme Court of the United States

 

 

CALIFORNIA TRUCKING ASSOCIATION, INC.,
RAVINDER SINGH, AND THOMAS ODOM,

Petitioners,
v.

ROBERT BONTA, IN HIS OFFICIAL CAPACITY
AS THE ATTORNEY GENERAL FOR THE
STATE OF CALIFORNIA, et al.,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEALS

BRIEF FOR THE MINNESOTA TRUCKING
ASSOCIATION, AS AMICUS CURIAE
SUPPORTING PETITIONERS

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that three true and correct
copies of the Brief for the Minnesota Trucking
Association, as Amicus Curiae Supporting Petitioners
were served on the persons listed below on the 9th day
of September, 2021, by depositing them with the United
States Post Office, with First Class Postage prepaid.
Charles Rothfeld, Esq.

MAYER BROWN LLP
1999 K Street N.W. John Mercer Masslon II, Esq.
Washington, D.C. 20006 WASHINGTON LEGAL
(202) 263-3233 FOUNDATION

2009 Massachusetts Avenue N.W.
Stacey M. Leyton, Esq. Washington, D.C. 20036

ALTSHULER BERZON, LLP (202) 588-0302
177 Post Street, Suite 300
San Francisco, CA 94108 Claire Louise Shapiro, Esq.

(415) 421-7151 EISEN & SHAPIRO
10028 Woodhill Road
Jose Zelidon-Zepeda, Esq. Bethesda, MD 20817
OFFICE OF THE (301) 469-8590
CALIFORNIA ATTORNEY
GENERAL
455 Golden Gate Avenue
San Francisco, CA 94102
(415) 510-3879
C JZ.
__¢ g" ___.,

Stephen M. West

Subscribed and sworn to before me this 9th day of
September, 2021.

hele WAm

Notary Public

      
   
    

& 3; OMAR WAYNE YAMOOR
, IC MINI
wy MY COMMISSION EXPIRES 0125

       
 
